     ADVISORY REPORT

  COSTS CLAIMED BY THE STATE
   OF MINNESOTA DEPARTMENT
    OF NATURAL RESOURCES,
   UNDER FEDERAL AID GRANTS
     FROM THE U.S. FISH AND
    WILDLIFE SERVICE FROM
      JULY 1, 1997 THROUGH
          JUNE 30, 1999




NOVEMBER 2002   Report No. 2003-E-0004
                                                                          X-GR-FWS-0006-2003

                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240




                                                                              November 12, 2002

                                ADVISORY REPORT

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Advisory Report on Costs Claimed by the State of Minnesota, Department of Natural
           Resources, Under Federal Aid Grants from the U.S. Fish and Wildlife Service from
           July 1, 1997 through June 30, 1999 (No. 2003-E-0004)

                                       Introduction
      This report presents the results of our performance of procedures to review another audit
agency’s work related to costs claimed by the State of Minnesota Department of Natural
Resources (Department) under Federal Aid grants from the U.S. Fish and Wildlife Service
(FWS) for the period July 1, 1997 through June 30, 1999.

Background and Scope
       The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the Federal
Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts), authorize FWS to
provide Federal assistance grants to the states to enhance their sport fish and wildlife programs.
The Acts provide for FWS to reimburse the states up to 75 percent of all eligible costs incurred
under the grants. Additionally, the Acts specify that state license revenues cannot be used for
any purpose other than the administration of the state’s fish and game agencies. FWS also
provides grants to the states under the Clean Vessel Act and the Endangered Species Act.

        Prior to September 2001, another audit agency prepared an undated draft audit report on
its audit of Federal Aid grants awarded by the FWS to the State of Minnesota for fiscal years
ended June 30, 1998 and 1999. The scope of its audit work, as stated in the announcement letter
to the Department, was to evaluate (1) the adequacy of the Department’s accounting system and
related internal controls to determine if the system can be relied upon to accurately accumulate
and report the actual costs charged to the grants, (2) the accuracy and eligibility of the direct and
indirect costs claimed by the Department under the Federal Aid grant agreements with FWS,
(3) the adequacy and reliability of the Department’s hunting and fishing license fees collection
and disbursement process, and (4) the adequacy of the Department’s purchasing system and
related internal controls. The audit was also to include an analysis of other issues considered to
be sensitive and/or significant to FWS. The audit work at the Department covered claims
totaling approximately $43.6 million on FWS grants that were open during the Department’s
fiscal years 1998 and 1999 (see Appendix 1). However, the audit agency’s agreement with the
FWS expired before the audit agency issued its draft report.

        From 1996 through September 2001, the audit agency conducted audits of Federal Aid
grants under a reimbursable agreement with FWS. The FWS did not renew or extend its
agreement with the audit agency, which expired September 30, 2001. At the time of expiration,
final audit reports on several uncompleted audits had not been issued and the audits were in
various stages of the audit and reporting processes. The audit agency indicated in a September
27, 2001 memorandum that its supervisors had not reviewed the Minnesota working papers to
ensure that (1) sufficient, competent and relevant evidence was obtained, (2) evidential matter
contained in the working papers adequately supported the audit findings in the report, and (3)
sound auditing techniques and judgment were used throughout the audit.

         On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which FWS
requested the OIG to (1) review the audit work performed by the audit agency including its
working papers, summaries and draft reports for these audits and (2) issue reports on the findings
that were supported by the working papers. Accordingly, our review was limited to performing
the procedures set forth in the Agreement and our conclusions presented in the report are limited
to the findings substantiated in the working papers. We did not perform any additional audit
work of the Department’s records, and the limited work performed under these procedures does
not constitute an audit by the OIG in accordance with Generally Accepted Government Auditing
Standards.

        Findings impacting Minnesota’s administration of the Federal Aid program are presented
in the body of the report and other management issues are presented in Appendix 2.

                                     Results of Review
       The results of our review of the working papers disclosed that:

     • The Department’s assent legislation was not adequate to prevent the diversion of license
        revenues.

     • The Department did not have a complete and accurate list of lands acquired with license
        revenues or Federal Aid funds.




                                                  2
A. Assent Legislation
        The Department’s assent legislation did not ensure against diversion of license revenues.
The Code of Federal Regulations (50 CFR 80.3 and 80.4) allows a state to participate in the
benefits of the Federal Aid Acts only after it has passed legislation which assents to the
provisions of the Acts, including a prohibition against the diversion of license fees paid by
hunters and sport fishermen to purposes other than administration of the fish and wildlife agency.
Although the Minnesota Legislation Chapters 97A (Game & Fish) and 97B (Hunting) specify
purposes for which the Game & Fish Fund can be used they, do not specifically prohibit such
diversions.

        The working papers also noted that the State Game and Fish Code 97A.065(b),
“Dedication of certain receipts” contains a provision that could result in the diversion of license
revenue. The statute requires that “The commissioner must reimburse a county, from the game
and fish fund, for the cost of keeping prisoners prosecuted for violations under this section if the
county board, by resolution, directs: (1) the county treasurer to submit all fines and forfeited bail
to the commissioner: and (2) the county auditor to certify and submit monthly itemized
statements to the commissioner.” The violations referenced in this section of the code include
those for unlawful snowmobile, recreational motor vehicle, and all-terrain vehicle activity.
Payments from the game and fish fund to the county for any one of those listed purposes would
represent a diversion of hunting and fishing license revenues. The Department explained that,
prior to 1993, fines and forfeited bails for those purposes were deposited to the Game and Fish
fund, so at the time, it was appropriate to use those funds to reimburse counties for jailing
violators. However, snowmobile, recreational motor vehicle, and all-terrain vehicles now have
their own separate funds from which county reimbursements should be made. The working
papers indicated that according to Departmental records, no payments for such purposes have
been made from the Game and Fish Fund since 1993.

Recommendations

       We recommend that the FWS:

       1. Require the Department to obtain an amendment to Minnesota Legislation Chapters
79A and 79B that includes the required prohibition against the diversion of license fees paid by
hunters and sport fishermen to purposes other than administration of the fish and wildlife agency.

        2. Require the Department to obtain an amendment to the state legislation that would
eliminate the provision Code 97A.065(b) which requires “The commissioner must reimburse a
county, from the game and fish fund, for the cost of keeping prisoners prosecuted for violations
under this section if the county board, by resolution, directs: (1) the county treasurer to submit all
fines and forfeited bail to the commissioner: and (2) the county auditor to certify and submit
monthly itemized statements to the commissioner.”




                                                  3
Department and U.S. Fish and Wildlife Responses

         The Department stated that the 2002 session of the legislature passed and the Governor
signed a bill (Senate File 2738) that changed Minnesota’s “assent language.” The Department
stated that these changes became effective August 1, 2002. Regarding the language in State
Game and Fish Code 97A.065(b), the Department stated that they have not and will not use
Game and Fish funds to reimburse counties for the cost of keeping prisoners prosecuted for
illegal snowmobile, all-terrain vehicle or recreation motor vehicle activities. Nevertheless, the
Department stated that, “It will propose that the legislature change the wording of MS 97A.065
subd.2(b) to eliminate the provision that could allow diversion of Game and Fish funds.” The
Department added that the next session begins in January and will end in May of 2003 and that
the Department will continue to work with legislators until the language is changed.

       The FWS agreed with the action(s) taken by the Department.

Office of Inspector General Comments

       The responses are adequate to consider both recommendations resolved. The FWS needs
to ensure that the Department obtains the legislative change to the wording of MS 97A.065
subd.2 (b).

B. Asset Management - Land

        The Department’s Land and Minerals Division is responsible for maintaining a
comprehensive land management database for all properties acquired by the Department.
However, the Division was unable to provide listings of lands acquired with Federal Aid funds or
license revenues because the database did not include funding source information. Although the
former Fish and Wildlife Division (now separate divisions) began developing its own inventory
of Federal Aid lands several years ago, this effort has not been completed. Complete and
accurate listing of lands acquired with license revenues or Federal Aid funds is essential to
managing these lands to ensure that land use and disposition is consistent with the original land
acquisition purposes and that income generated from the use or sale of these lands is handled in
accordance with FWS regulations.

Recommendation

       We recommend that the FWS ensure that the Department develops and maintains an
accurate and complete listing of lands acquired with license revenues and Federal Aid funds.

Department and U.S. Fish and Wildlife Responses

       The Department stated that in 2002, the state completed development of electronic
databases that contain information about all the land acquired through Sport Fish Restoration and
Wildlife Restoration Act grants. The Department further stated that their staff regularly use
these databases to track program income and ensure that use and disposition of land acquired


                                                 4
through Sport Fish and Wildlife Restoration Acts grants is consistent with the terms of the grant
and other Federal requirements. The Department stated that they feel that this issue had been
resolved for the purposes of this review.

      The FWS agreed with the action taken by the Department to resolve this
recommendation.

Office of Inspector General Comments

       The responses are adequate to resolve and implement the recommendation.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written comments regarding Recommendation 2 in Finding A by February 14, 2002.

       This advisory report is intended solely for the use of grant officials of the U.S. Fish and
Wildlife Service, is not intended for, and should not be used by, anyone who is not cognizant of
the procedures that were applied and who agreed to the sufficiency of those procedures.

       If you have any questions regarding this report, please contact Mr. Gary Dail, Federal
Assistance Audit Coordinator, at (703) 487-8011.

cc: Regional Director, Region 3
     U.S. Fish and Wildlife Service




                                                 5
                                                      APPENDIX 1

MINNESOTA DEPARTMENT OF NATURAL RESOURCES
 SCHEDULE OF GRANTS AND QUESTIONED COSTS

             FOR FISCAL YEARS 1998-1999

      GRANT
   AGREEMENT       COST CLAIMED FEDERAL SHARE
F-02-L-56                 $363,167      $272,375
F-02-R-30                     812,441      609,331
F-26-R-31                     533,333      400,000
F-29-R-17                    3,785,567    2,839,175
F-29-R-18                    5,561,059    4,170,794
F-29-R-19                    4,348,779    3,261,584
F-32-D-12                    1,578,100    1,183,575
F-32-D-13                    2,666,667    2,000,000
F-34-D-13                     228,071      171,053
F-34-D-11                     850,840      638,130
F-34-D-12                     333,333      250,000
F-34-D-13                     266,667      200,000
F-35-D-12                     400,000      300,000
F-35-D-13                     637,333      478,000
F-36-D-10                      28,333       21,250
F-37-E-8                      266,667      200,000
F-37-E-9                      293,333      220,000
F-38-D-7                      267,360      200,520
F-38-D-8                      266,667      200,000
FW-3-L-52                    1,059,959     794,969
FW-3-L-53                     520,880      390,660
FW-4-D-63                     400,000      300,000
FW-4-D-64                     920,049      690,037
FW-4-D-65                     454,251      340,688
FW-10-P-11                    160,000      120,000
FW-11-C-11                     39,835       29,876
FW-11-C-12                     37,833       28,375
FW-13-T-8                    1,125,000     843,750



                         6
     GRANT
  AGREEMENT   COST CLAIMED FEDERAL SHARE
FW-13-T-9             985,045       738,750
FW-6-S-15               136,894       102,671
FW-6-S-16                33,133         24,850
W-27-L-114              481,780       361,335
W-61-D-4               2,293,333     1,720,000
W-62-D-4                643,000       482,250
W-63-D-4                551,136       413,352
W-64-D-4               1,243,333      932,500
W-65-D-1               3,995,533     2,996,650
W-65-D-2                371,441       278,581
W-66-M-1               1,074,333      805,750
W-67-T-1               1,166,667      875,000
W-67-T-2                549,509       412,132
W-68-D-1                889,817       667,363
W-68-D-2                546,667       410,000
W-69-S-1                233,333       175,000
W-69-S-2                173,333       130,000
      Total        $43,573,811     $32,680,326




                   7
                                                                                      APPENDIX 2

                                 MANAGEMENT ISSUES
        The audit agency’s working papers and draft report indicated that the Department’s cost
accounting, purchasing, labor recording, and cash management systems and related internal
controls, and its indirect cost structure and license certification process, were adequate for
Federal Aid participation. The working papers also identified three management issues that the
Minnesota Department of Natural Resources and the Fish and Wildlife Service should address,
as follows:

A. Advanced Payments

        The Department made advanced payments to a sub grantee several months before the
funds were needed. The regulations (43 CFR 12.61 (c)) state that: “Grantees and sub grantees
shall be paid in advance, provided they maintain or demonstrate the willingness and ability to
maintain procedures to minimize the time elapsing between the transfer of funds and their
disbursement by the grantee or sub grantee.” On November 12, 1998, the Department paid
$50,000 to the Itasca County Soil and Water Conservation District (sub grantee) for costs
sharing, on a shoreline stabilization project on Sand Lake. The Federal share ($37,000) was
drawn down by the Department soon after the payment was made. The letter from the sub
grantee requesting payment indicated that the funds would be encumbered by the spring of 1999.
Unwarranted advanced payments results in lost interest to the Federal Government.

B. Billing System/Electronic Funds Transfer Drawdowns
        The Department’s billing system and electronic fund transfer system for drawdowns were
generally adequate for the reimbursement under Federal Aid grants. The Department typically
submitted biweekly requests for reimbursement of expenditures. However, the Department did
not adjust the billings until year-end to account for program income credits. This resulted in
over billings throughout the year and ultimately, a loss of Federal interest earned on FWS
Federal Aid funds. The working papers indicated the foregone Federal interest was not material
in the audit period, although it could be in the future if program income increases.

C. Asset Management - Equipment
         The Department’s equipment management system was generally adequate to ensure that
assets purchased with Federal Aid funds or restricted license revenue were properly utilized or
disposed of. However, the working papers identified minor deficiencies at 3 of 20 locations
visited, indicating that 2 sites did not conduct inventories, 2 transferred items (a fish tank and an
all terrain vehicle) were not on the inventory of the receiving site, and one computer had 2
property numbers assigned.




                                                  8
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
